ID

I

l.; L

Supreme Court, U.S.
FILED

OCT 0 8 232G

a
<,

a
U"

_w n o
/'■
vj> jc

OFFICE OF THE CLERK

No. .
IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER THIEME - Petitioner

v.
UNITED STATES OF AMERICA - Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
CHRISTOPHER THIEME
Reg. No. 69451-050
FCI FORT DIX
Federal Correctional Institution
Post Office Box 2000
Joint Base MDL, New Jersey 08640
PETITIONER PRO SE - ** PRESENTLY CONFINED **

VVlL^

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

** QUESTIONS PRESENTED FOR REVIEW**
This petition contains several claims of which most are novel and have never been brought before
this court or decided in courts below. These specific claims--one seeking to invalidate a federal criminal
statute, two challenges to the constitutionality of a federal sentencing guidelines enhancement provision,
have not been heard in the 30-35 years since the guidelines and 18 U.S.C. 1958(a) was enacted. Further
claims seek to ask whether novel challenges to whether the AEDPA statute of limitations violates the
suspension clause for first-time 2255 filers and whether the common law "doctrine of equitable estoppel"
would reset the AEDPA clock-specific questions that the Supreme Court has not determined. All of these
questions raised below remain unanswered.
1. When faced with a plea agreement that contained unconstitutional provisions, does the doctrine
of "equitable estoppel" or "material mutual mistake" apply to "reset the clock" and provide habeas
relief from a Petitioner's unlawful conviction and sentence? Would "equitable estoppel" be one of the
"equitable modifications" (other than tolling) hinted at but never enumerated in the Third Circuit
decisions in Miller v. New Jersey State Department of Corrections, 144 F.3d 616, 618 (3rd Cir. 1998)
and Robinson v. Johnson, 313 F.3d 128, 135-137 (3rd Cir. 2002)?
2. Does the AEDPA statute of limitations under 28 U.S.C. 2255(f) essentially deny an inmate's right
to equal access to the courts, equal protection of law, and/or violate the Suspension Clause when it
forecloses a merits adjudication against a first-time 2255 petitioner?
3. In the face of competing holdings in the First and Sixth Circuit, and a 2020 District of Idaho decision
calling the statute "ambiguous" and "badly written", is 18 U.S.C. 1958(a) facially invalid for being
"void-for-vagueness" and "overbroad"?
4. In the context of a statute invalidity examination, does the dictum in Bousley v.United States,
523 U.S. 614, 623 (1998) that "actual innocence" does not mean "legal insufficiency" CONFLICT with
the Third Circuit's decision in United States v. James, 928 F.3d 247 (2019) holding "legal innocence
counts as innocence" and CONFLICT with this Court's "Blackledge-Menna doctrine" and its holding
in Class v. United States, 200 L.Ed.2d 37 (2018) that an underlying constitutional infirmity in a
t

- \ ~

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
statute "implicates the very power of the [Government] to prosecute" a defendant?
5. Does the use of a four-point USSG 2A1.5(b)(1) sentencing enhancement to a defendant's sentence
for an 18 U.S.C. 1958(a) conviction constitute "impermissible double counting" if this sentencing
enhancement duplicates verbatim the "critical element" of the offense of conviction?
6. Does this same four-point USSG 2A1.5(b)(1) sentencing enhancement when applied to the calculation
of a guidelines offense level for other counts through "grouping" in a multi-count conviction become
a double jeopardy multiple punishment? And further, did Congress intend that grouping under USSG
3D1.2 and 3D1.3 be used as an "end-run" around a statutory maximum sentence through its application
to other counts?
7. Can a sentencing court order restitution that does not meet the four specific reasons for imposing
restitution provided by 18 U.S.C. 3663A?
8. Would the failure of defense counsel to recognize or object to the aforesaid errors before, during,
and after sentencing render deficient and prejudicial performance to render his assistance
constitutionally ineffective? Further, would his misadvice that prevented the Petitioner from taking
an appeal he would have otherwise pursued render his assistance ineffective?
9. Do never-before-argued "novel" claims of constitutional injury provide an equitable basis to "reset
the clock", "in the interests of justice", for first-time AEDPA-limited 2255 motions?
10. Would the Supreme Court of the United States hear and adjudicate the merits of the Petitioner's
habeas claims, raised in this action pursuant to 28 U.S.C. 2255, in its original jurisdiction?

< *

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FJD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Certiorari Petition (ii)
DATE: 09/16/2020 06:36 PM
** LIST OF PARTIES **
All parties to this action appear in the caption set forth above!
1.) Christopher Thieme, Petitioner (pro se).
2.) United States of America, Respondent.
** RELATED CASES **
For the underlying criminal conviction:
* United States v. Thieme, Docket No. 2:16-CR-00294-SDW, United States Distrtict Court for the
District of New Jersey. Sentencing hearing held December 19, 2016. Judgment and
Commitment Order, as amended, dated December 22, 2016.
For the 2255 motion:
* Thieme v. United States, Docket No. 2:19-CV-15507-SDW, United States District Court for the
District of New Jersey. Judgment (memorandum opinion and order) entered March 24, 2020.
* Thieme v. United States, No. 20-1839, United States Court of Appeals for the Third Circuit.
Judgment (order) entered July 29, 2020.

. /

* +1

- |j {

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Certiorari petition (iii-2)
DATE: 09/03/2020 11:16 PM
** TABLE OF CONTENTS **

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED - *

X.
1
1-2.

STATEMENT OF THE CASE ,

Z-3

OPINIONS BELOW
JURISDICTION . .

REASONS FOR GRANTING WRIT
I.

II.

_

-

That the District Court and the Court of Appeals erred in denying
the Petitioner a Certificate of Appealability because he raised
several novel, never-before-raised, constitutional injuries and
procedural claims that are inherently "debatable" by jurists of
reason _ _ ^ _ _ _ .
_
_ _

M'6

That the District Court and the Court of Appeals erred in
blatantly IGNORING the Petitioner's assertion that the doctrines
of "equitable estoppel" and "material mutual mistake" should have
"reset the clock" or otherwise overcome the AEDPA 2255 motion
limitations period

. . .7-1o

III. That the District Court the Court of Appeals erred in denying this
first-time Petitioner access to 2255 relief because the AEDPA
limitations violate the Suspension Clause, and his rights to Due
Process and Equal Protection of Law .
_
_ _ . ._
IV.

V.
VI.

. . 11-1H

That the Court of Appeals erred because their application of
Bousley v. United States 523 U.S. 614 (1998) that "actual innocence"
does not mean "legal insufficiency" conflicts with their own decision
in United States v. James, 928 F.3d 247 (3rd Cir. 2019) that "legal
innocence counts as innocence", and conflicts with this Court's
"Blackledge-Menna Doctrine" and its decision in Class v. United States,
200 L.Ed.2d 37 (2018)
That the District Court and Court of Appeals erred in deciding that
the Petitioner had not been "diligent" in pursuing his rights . . j

.-.is
l(o-l?

,

That the District Court and Court of Appeals erred in declining to
adjudicate the merits of the Petitioner's 2255 claims „ . . .
A. That the Petitioner raised below a substantial showing of denial of
constitutional right on issue that an offense of conviction, 18 U.S.C.
1958, is void-for-vagueness and overbroad , «. . »
_ .
B. That the Petitioner raised below a substantial.showing of denial of
constitutional right on issue of "impermissibly double counted"
sentencing enhancement
C. That the Petitioner raised below a substantial showing of denial of
constitutional right on issue that sentencing court’s restitution
order is beyond its authority under 18 U.S.C. 3663A * _ _ _ .
-

. . 17-27.

.

,

■

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

T

D. That the Petitioner raised below a substantial showing of denial of
constitutional right on issue of deficent and prejudicial performance
of defense counsel
^
^
VII.

The Questions raised in this case are important and unresolved

„ ^ , 31'32-

, -

. , 32

CONCLUSION
** INDEX TO APPENDICES **
APPENDIX A - Order of the United States Court of Appeals for the Third
Circuit, dated July 29, 2020, denying a Certificate of
Appealability - _ _ ^ ~ ^ ^
APPENDIX B - Memorandum Opinion and Order of the United States District
Court for the District of New Jersey, dated March 24, 2020,
denying Motion under 28 U.S.C. 2255
_
APPENDIX C - Judgment of Commitment of the United States District Court
for the District of New Jersey, dated December 22, 2019, in
the underlying criminal conviction _ _________ ____
APPENDIX D - Texts of Constitutional and Statutory Provisions Involved _ _

— V —

4f

A-l W>A-Z.
e-ii
Mi. e-7
P-14»T>-1‘S

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Certiorari petition (iv.1a)
DATE: 09/22/2020 11:04 PM
** TABLE OF AUTHORITIES **
Page No(s).

CASES
Abbas v. Dixon, 480 F.3d 636 (2nd Cir. 2007)

9

Abie State Bank v. Bryan, 282 U.S. 765,51 S.Ct. 252, 75 L.Ed. 690 (1931)

.... 21

Bechtel v. Robinson, 886 F.2d 644 (3rd Cir. 1989)

9
6, 15, 21, 22

Blackledge v. Perry, 417 U.S. 21,.94 S.Ct. 2018, 40 L.Ed.2d 628 (1974)
Bousley v. United States, 523 U.S. 614, 118 S.Ct. 1604,
140 L.Ed.2d 828 (1998)....•................................

15
13

Butterworth v. United States, 775 F.2d 459 (1st Cir. 2015)

8

Buttry v. General Signal Corp., 68 F.3d 1488 (2nd Cir. 1995)
Cerbone v. International Ladies Garment Workers Union, 708
F.2d 45 (2nd Cir. 1985)..............................................

9
14

Chessman v. Teets, 354 U.S. 156, 77 S.Ct. 1127, 1 L.Ed.2d 1253 (1957)

20

City of Chicago v. Morales, 527 U.S. 41, 119 S.Ct. 1849,144 L.Ed.2d 67 (1999)

6, 15, 22

Class v. United States, 583 U.S.__138 S.Ct. 798, 200 L.Ed.2d 37 (2018)

21

Coates v. City of Cincinnati, 402 U.S. 611,91 S.Ct. 1686, 29 L.Ed.2d 214 (1971)

21

Connally v. General Constr. Co. 269 U.S. 385, 46 S.Ct. 216, 70 L.Ed 322 (1926)
7

Cox v. Horn, 757 F.3d 113 (3rd Cir. 2014)

28

Davis v. United States, 464 F.2d 1009 (6th Cir. 1972)

7

Day v. McDonough, 547 U.S. 198, 126 S.Ct. 1675, 164 L.Ed.2d 376 (2006)
Dillman v. Combustion Sig'g, Inc. 784 F.2d 57 (2nd Cir. 1986), affd
891 F.2d 277 (1989)...........................................................

8
14

Edward v. Kearzey, 96 U.S. 595, 24 L.Ed. 793 (1878)

15, 19

Elkison v. Deliesseline, 8 F.Cas 493 (D SC 1823)................................

12

Felkin v. Turpin, 518 U.S. 651, 116 S.Ct. 2333, 135 L.Ed.2d 827 (1996)
Finley v. Paine, 2018 U.S.Dist LEXIS 208275 (E.D.Mo. 2018),
Dkt No. 4:97-CR-455-SNL........................................................

21

Flanagan v. United States, 465 U.S. 259, 104 S.Ct. 1051, 79 L.Ed.2d 288 (1984)

15

Garza v. Idaho, 586 U.S. _, 139 S.Ct. _, 203 L.Ed.2d 77 (2019)...................

13, 28

— VI —

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
21

Gooding v. Wilson, 405 U.S. 518, 92 S.Ct. 1103, 31 L.Ed.2d 408 (1972)
28

Griffith v. United States, 871 F.3d 1321 (11th Cir. 2017).......................

13

Harris v. Nelson, 394 U.S. 286, 89 S.Ct. 1082, 22 L.Ed.2d 281 (1969)

21

Haynes v. United States, 390 U.S. 85, 88 S.Ct. 722, 19 L.Ed.2d 923 (1968)
Heckler v. Community Health Services, 467 U.S. 51,104 S.Ct. 2218,
81 L.Ed.2d 42 (1984)............................................................

8
. 14

Herman v. Claudy, 350 U.S. 116, 76 S.Ct. 223, 100 L.Ed. 126 (1956)
Hill v. United States, 368 U.S. 424, 82 S.Ct. 468, 7 L.Ed.2d 417 (1962)

22

Hinton v. Alabama, 577 U.S. 263, 134 S.Ct. 1081, 188 L.Ed.2d 1 (2014)

28
7, 17, 18

Holland v. Florida, 560 U.S. 631, 130 S.Ct. 2549, 177 L.Ed.2d 130 (2010)
In Re Machne Israel, 48 Fed.Appx. 859 (3rd Cir. 2000)

7

In Re RFE Indus, Inc. 283 F.3d 159 (3rd Cir. 2002)...

9
12

INS v. St. Cyr, 533 U.S. 289, 121 S.Ct 2271, 150 L.Ed.2d 347 (2001)

28

Jae Lee v. United States, 582 U.S. _, 137 S.Ct. 1958, 198 L.Ed.2d 476 (2017)
Johnson v. United States, 2016 U.S.Dist LEXIS 100687 (W.D.Tenn 2016),
Dkt No. 13-2219-STA-tmp................................ ............................

.. 20
26

Jones v. Thomas, 491 U,S. 376, 109 S.Ct. 2522, 105 L.Ed.2d 322 (1989)

24

Jones v. United States, 527 U.S. 373, 119 S.Ct. 2090, 144 L.Ed.2d 370 (1999)
9

Keaby v. Carey, 706 F.2d 277 (2nd Cir. 1983)

20

Kolender v. Lawson, 461 U.S. 352, 103 S.Ct. 1855, 75 L.Ed.2d 903 (1983)
18

LaCava v. Kyler, 398 F.3d 271 (3rd Cir. 2005)

11

Loncharv. Thomas, 517 U.S. 314, 116 S.Ct. 1293, 134 L.Ed.2d 440 (1996)
Louisiana ex rel. Francis v. Resweber, 329 U.S. 459, 67 S.Ct. 374,
91 L.Ed 422 (1947).........................................................

12

Louisville Gas & Electric Co. v. Coleman, 277 U.S. 32, 48 S.Ct. 423,
72 L.Ed. 770 (1928)..........................................................

12
9

Lubrizol Corp. v. Exxon Corp., 929 F.2d 960 (3rd Cir. 1991)..................

7

Mabry v. Johnson, 467 U.S. 504, 104 S.Ct. 2543, 81 L.Ed.2d 437 (1984)
Mack v. United States, 782 Fed.Appx. 789 (11th Cir. 2019)

.... 28

Majid v. Fielitz, 700 F.Supp. 704 (S.D.N.Y. 1986)

8

Maxwell v. Bugbee, 250 U.S. 525, 40 S.Ct. 2, 63 L.Ed. 1124 (1919)

12

Menna v. New York, 423 U.S. 61, 94 S.Ct. 241,46 L.Ed.2d 195 (1975)

6, 15, 21

Miller v. New Jersey State Department of Correction, 145 F.3d 616 (3rd Cir. 1998)
\*

— VII-

5, 7, 10

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

Miller-El v. Cockrell, 537 U.S. 322, 123 S.Ct. 1029, 154 L.Ed 931 (2003)
Molina-Martinez v. United States, 578 U.S._, 136 S.Ct. 1338,
194 L.Ed.2d 444 (2017)..........................................

5
28

Nashville, Chattanooga at St. Louis Railway v. Walters, 294 U.S. 405,
55 S.Ct. 486, 79 L.Ed. 949 (1935).......................................

21

Pace v. DiGuglielmo, 544 U.S. 408, 125 S.Ct. 1807, 161 L.Ed.2d 669 (2005)

18
14

Palmer v. Ashe, 342 U.S. 134, 72 S.Ct. 191, 96 L.Ed. 154(1951)

7 .'

Puckett v. United States, 556 U.S. 129, 129 S.Ct. 1423, 173 L.Ed.2d 266 (2009)

Reed v. Ross, 468 U.S. 1, 104 S.Ct. 2901, 82 L.Ed.2d 1 (1984)

16, 18

Robinson v. Johnson, 313 F.3d 128 (3rd Cir. 2001)

5-7, 10

Rodriguez v. Artuz, 990 F.Supp. 275 (S.D.N.Y. 1998)

11
28

Roe v. Flores-Ortega, 528 U.S. 470, 120 S.Ct. 1029, 145 L.Ed.2d 985 (2000)
Rosa v. Senkowski, 1997 U.S.Dist LEXIS 11177 (S.D.N.Y. 1997)
Rosales-Mireles v. United States, 585 U.S._, 138 S.Ct. 1897,
201 L.Ed.2d 397 (2018).............................................

11
12, 13, 26
18

Ross v. Varano, 712 F.3d 784 (3rd Cir. 2013)

8

Santobello v. New York, 404 U.S. 257, 92 S.Ct. 495, 30 L.Ed.2d 427 (1971)
Schlueter v. Varner, 384 F.3d 69 (3rd Cir. 2004)

18

Sinacole v. iGate Capital, 287 Fed.Appx. 993 (3rd Cir. 2008)

8
5

Slack v. McDaniel, 529 U.S. 473, 120 S.Ct. 1595, 146 L.Ed.2d 542 (2000)

20

Smith v. Goguen, 415 U.S. 566, 94 S.Ct. 1242, 39 L.Ed.2d 605 (1974)
Smith v. Singletary, 170 F.3d 1051 (11th Cir. 1999)..........................................

28
28

Strickland v. Washington, 466 U.S. 669, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984)
Swain v. Pressley, 430 U.S. 372, 97 S.Ct. 1224, 51 L.Ed.2d 411 (1977)...........

12

Taylor v. United States, 2020 U.S.Dist LEXIS 34341 (S.D.Ind 2020)......... .......

30
9

Tower v. Allstate Insurance Co., 1994 U.S.Dist. LEXIS 20539 (D.Del 1994)
Triestman v. United States, 124 F.3d 361 (2nd Cir. 1997)

11, 12
22

United States v. Addonizio, 442 U.S. 178, 99 S.Ct. 2235, 60 L.Ed.2d 805 (1979)
United States v. Amato, 540 F.3d 153 (2nd Cir. 2000)

27
, 20

United States v. Barnett, 2015 U.S.Dist LEXIS 29249 (E.D.Ky 2015)
United States v. Beith, 407 F.3d 881 (7th Cir. 2005)

— VII/-

24

TRULINCS 69451050 -THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petition (iv.4b)
DATE: 09/22/2020 11:04 PM
4

United States v. Black, 2019 U.S.Dist. LEXIS 7589 (W.D.Pa 2019)

20

United States v. Bloom, Case No. 05-CR-178-AVC (D.Conn)
24

United States v. Blum, 534 F.3d 608 (7th Cir. 2008)
United States v. Brace, 488 U.S. 563 (1989)

21
13

United States v. Cabrera-Rivera, 893 F.3d 14 (1st Cir. 2018)

23

United States v. Chong, 419 F.3d 1076 (9th Cir. 2005).................................

16, 19, 20

United States v. Danforth, 2020 U.S.Dist LEXIS 26216 (D.ldaho 2020).........

13, 20, 22

United States v. Davis, 588 U.S. _, 139 S.Ct. 2319, 204 L.Ed.2d 757 (2019)
22

United States v. DeLuca, 889 F.2d 503 (3rd Cir. 1989)
United States v. Doe, 806 F.3d 732 (3rd Cir. 2015)

7

United States v. Follet, 269 F.3d 996 (9th Cir. 2001)

27

United States v. Frampton, 382 F.3d 213 (2nd Cir. 2004)

23

United States v. Garay-Sierra, 885 F.3d 7 (1st Cir. 2018)

13
26

United States v. Garcia, 919 F.2d 881 (3rd Cir. 1990)
United States v. Gardner, 417 F.3d 1541 (6th Cir. 2005)

30

United States v. Giancola, 754 F.2d 898 (11th Cir. 1985)

6
16, 20

United States v. Gordon, 875 F.3d 26 (1st Cir. 2017)

24

United States v. Haynes, 582 F.3d 686 (7th Cir. 2009)

27

United States v. Hicks, 997 F.2d 594 (9th Cir. 1993)
United States v. James, 928 F.3d 927 (3rd Cir. 2019)

15, 19

United States v. Keller, 902 F.2d 1391 (9th Cir. 1990)

30

United States v. Knobloch, 131 F.3d 366 (3rd Cir. 1997)

25

United States v. Lallemand, 989 F.2d 936 (7th Cir. 1993)

24

United States v. Liotard, 817 F.2d 1074 (3rd Cir. 1987)

26

United States v. Lopez, 248 F.3d 427 (5th Cir. 2010)...

13

United States v. Mandell, 2014 U.S.Dist LEXIS 155253 (N.D.III. 2014),
Docket No. 12-CR-892 ...........................................................
United States v. Manna, 201 Fed.Appx. 146 (4th Cir. 2006)..

- ix

20
27

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

United States v. Maynard, 743 F.3d 374 (2nd Cir. 2014).

27-28

United States v. McCullah, 76 F.3d 1087 (10th Cir. 1996)

24

United States v. Miller, 753 F.2d 19

6

United States v. Ng, 25 Fed.Appx. 452 (6th Cir. 2001)

20

United States v. Peppers, 899 F.3d 211 (3rd Cir. 2018)

8

United States v. Quinn, 416 F.Supp.2d 133 (D.D.C. 2006)

6

United States v. Reichow, 416 F.3d 802 (8th Cir. 2005)

27

United States v. Reevey, 364 F.3d 151 (4th Cir. 2004)

24
23

United States v. Ritter, 989 F.2d 318 (9th Cir. 1993)
United States v. Rodgers, 981 F.2d 497 (11th Cir. 1993)

25
21

United States v. Schueller, 136 F.Supp.3d 1074 (D.Minn 2015)
United States v. Seligsohn, 981 F.2d 1418 (3rd Cir. 1992)......

25

United States v. Senn, 129 F.3d 886 (7th Cir. 1997)

24

United States v. Sinclair, 74 F.3d 753 (7th Cir. 1995)

24-25

United States v. Steward, 420 F.3d 1007 (9th Cir. 2015)

20

United States v. Swinton, 333 F.3d 481 (3rd Cir. 2003)

13

United States v. Symington, 781 F.3d 1308 (11th Cir. 2015)

8

United States v. Velez-Luciano, 814 F.3d 553 (1st Cir. 2016)

... 13

United States v. Wicklund, 114 F.3d 151 (2nd Cir. 1997)

23
20

United States v. Wynn, 987 F.2d 354 (6th Cir. 1993)

14

Uvegas v. Pennsylvania, 335 U.S. 437, 69 S.Ct. 184, 93 L.Ed 127 (1949)
8

Vadino v. A. Valey Engineers, 903 F.2d 253 (3rd Cir. 1990)

13

Weigan v. United States, 380 F.3d 890 (6th Cir. 2004)

... 28

White v. Johnson, 180 F.3d 628 (5th Cir. 1999)
Winthrop-Redin v. United States, 767 F.3d 1210 (11th Cir. 2014)

X

6

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petition (iv.2)
DATE: 09/22/2020 10:29 PM
Page No(s).
CONSTITUTIONAL, STATUTORY, AND OTHER PROVISIONS
Article I, Section 1 ("Vesting Clause")

19
11-14

Article I, Section 9, Clause 2 ("Suspension Clause")....
Article II, Section 1 ("Vesting Clause")

19

Article III, Section 1 ("Vesting Clause")

19
19, 23, 26

Amendment V (Due Process and Double Jeopardy clauses)

28-30

Amendment VI (Ineffective Assistance of Counsel clause)
27

Amendment VIII (Excessive Fines clause)
Amendment XIV, Section 1 (Due Process, Equal Protection of Law,
Equal Access to Courts)..........................................................

12
24

18 U.S.C.'215(a)(1), (a)(2)

24

18 U.S.C. 351(d)
18 U.S.C. 371

24

18 U.S.C. 373

24

18 U.S.C. 924(c)

25

18 U.S.C. 1117

24
25

18 U.S.C. 1201, 1201(d)
,

24

18 U.S.C. 1751(d)

5, 16, 19-21,23, 28, 30, 31

18 U.S.C. 1958, 1958(a)

27-28

18 U.S.C. 3663A, (b)(1), (b)(2), (b)(2)(A), (b)(3), (b)(4),
28 U.S.C. 2253(c)

5

28 U.S.C. 2254

12
5, 9, 12, 14

28 U.S.C. 2255, 2255(f), (f)(3).................................

25-26

United States Sentencing Guidelines (USSG) 1A4(a)
USSG 1A4(e)..........................................................

26

USSG 1B1.3

23
16, 19, 23-26, 31

USSG 2A1.5, 2A1.5(b)(1)

'-XI'-

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
USSG 2A4.1

25

USSG2E1.4

25
25

USSG Chapter 3, Part D introduction commentary
USSG 3D1.2

23, 25, 31

USSG 3D1.3

23, 25, 31

USSG 3E1.1

25

SCHOLARLY MATERIALS
8

26 R. Lord, Williston on Contracts 68.1 (2003)
18 Charles A. Wright and Arthur R. Miller, Federal Practice &
Procedure, 4410 (3rd Ed. 2017).................................
Restatement (Second) of Contracts, 152, 155, 158 (4th Ed. 2003)

9
8

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petition (1)
DATE: 09/16/2020 06:34 PM
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
** OPINIONS BELOW **
This case derived in the federal courts.
The opinion of the United States Court of Appeals appears at APPENDIX A to the petition and is
unpublished.
The opinion of the United States District Court appears at APPENDIX B to the petitioner and is
unpublished. However, the opinion can be found at Thieme v. United States, 2020 U.S. Dist. LEXIS
50443, or 2020 WL 1441654 (D.NJ March 24, 2020).
** JURISDICTION **
The date on which the United States Court of Appeals for the Third Circuit decided my case was July 29,
2020. No petition for rehearing was sought. This Petition was timely filed within ninety days of that date.
The jurisdiction of this court is invoked under 28 U.S.C. 1254(1).
** CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED **
The pertinent constitutional and statutory provisions involved are too lengthy to be set forth verbatim in
this petition, but are set forth in Appendix D, pages D-1 to D-18. However, they include:
* The Vesting Clauses of Article I, II, and III of the United States Constitution (page D-1)
* The "Suspension Clause" of Article I, Section 9, Clause 2 of the United States Constitution (page D-1)
* Amendment V of the United States Constitution (page D-1)
* Amendment VI of the United States Constitution (page.D-1)
* Amendment VIII of the United States Constitution (page D-1)
* Amendment XIV of the United States Constitution (page D-1)
* 18 U.S.C. 1958 (page D-2)
* 18 U.S.C. 3663A (pages D-3 to D-5)

l'

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

* 28 U.S.C. 2255 (pages D-6 to D-7)
* United States Sentencing Guidelines, USSG 2E1.4 (page D-8)
* United States Sentencing Guidelines, USSG 2A1.5 (page D-9)
* United States Sentencing Guidelines, USSG 3D1.2 (pages D-10 to D-16)
* United States Sentencing Guidelines, USSG 3D1.3 (pages D-16 to D-18)
** STATEMENT OF THE CASE **
I. COURSE OF PROCEEDINGS IN THE SECTION 2255 CASE NOW BEFORE THIS COURT.
On June 21,2016, in a cause then pending in the United States District Court for the District
of New Jersey entitled "United States v. Thieme", Docket No. 2:16-CR-00294-SDW, Petitioner was
convicted on the information by entry of a plea agreement on two counts-count one: "Attempted
Kidnapping", in violation of 18 U.S.C. 1201(d); and count two: "Use of Interstate Commerce
Facilities in the Commission of a Murder for Hire" (Racketeering), in violation of 18 U.S.C. 1958(a).
On December 19, 2016, the District Court entered judgment and sentenced the Petitioner to a
total of 210 months--210 months on count one and 120 months on count two to run concurrently to
each other. This was to be followed by 3-years of supervised release and the Petitioner was ordered
to pay $1,033.50 in restitution. [See Appendix C, pages C1-C7], No direct appeal was taken. The
* Petitioner was serving this sentence when the motion under Section 2255 was filed in the District
Court.
On June 11,2019, the Petitioner filed a motion to the District Court for a Writ of Audita Querela
which was subsequently converted into a motion under 28 U.S.C. 2255 to vacate and set aside the
judgment in the underlying criminal case. This was entitled "Thieme v. United States", Docket No.
2:19-CV-15507-SDW. No answer to the motion was required by the District Court or filed by the
Government. The Petitioner filed a Brief and other motions and supporting papers in support of
his 2255 motion. No hearing was held.
On March 24, 2020, the District Court entered a memorandum opinion and order denying the
motion under 28 U.S.C. 2255. The District Court denied a Certificate of Appealability. [See
Appendix B, pages B1-B11],
On April 2, 2020, Petitioner duly and timely filed a Notice of Appeal to the United States Court
of Appeals for the Third Circuit and subsequently filed an Application for a Certificate of Appealability
and other papers.

2

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

On July 29, 2020, the Court of Appeals issued an Order denying the Petitioner's application for
a Certificate of Appealability. [See Appendix A, pages A1-A2]. Petitioner brings this matter before
this Court through this Petition for a Writ of Certiorari.
II. EXISTENCE OF JURISDICTION BELOW
Petitioner was convicted in the United States District Court for the District of New Jersey on
two counts as indicated above. A Section 2255 motion was appropriately filed before this Court and
duly appealed to the United States Court of Appeals for the Third Circuit.

-3

TRULINCS 69451050-THIEME, CHRISTOPHER -Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petitioner (3-3.1)
DATE: 08/29/2020 05:12 PM
** REASONS FOR GRANTING WRIT **
In 25 years of habeas jurisprudence, it appears to a layman that the courts are more concerned with
finding any and every procedural obstacle to deny access to relief instead of directing their focus to
scrutinizing and correcting constitutional injury. This reflects badly on the judiciary--even more especially
when a first-time 2255 petitioner appears with novel issues of constitutional magnitude, never before
f

argued in front of this Court or heard on the merits in any lower court, never raised by any attorney, and
he only finds locked doors barring him and his cause entry. The claims argued in this petition and argued
below directly affect and impact the convictions and sentences of several hundred, and potentially several
thousand federal inmates and defendants down the road. While Petitioner recognizes the need for the
finality of conviction and sentence, he asserts that justice and the interests of justice should have a role
here, too. See United States v. Black, 2019 U.S.Dist. LEXIS 7589 (W.D.Pa 2019) (that finality should take
a back seat when significant constitutional errors need correction). Because these issues are a sojourn
into an undiscovered country, this Court should grant review in order to promote the development of
. the law.
I. THE DISTRICT COURT AND COURT OF APPEALS ERRED IN DENYING
A CERTIFICATE OF APPEALABILITY BECAUSE THE PETITIONER RAISED
SEVERAL NOVEL, NEVER-BEFORE-RAISED CONSTITUTIONAL INJURIES
AND PROCEDURAL CLAIMS THAT ARE INHERENTLY "DEBATABLE" BY
"JURISTS OF REASON"
As stated above, several of the claims raised herewith are novel issues. No other court has been
asked to decide these questions proposed in this petition: These questions are important, raise concerns
about the fundamental nature of the sentencing guidelines, and to date remain unresolved. He believes
that the decision by the District Court and Court of Appeals below to not adjudicate these claims on the
merits were egregious error and an exemplar of what is wrong with the habeas process.
Before the District Court, the Petitioner raised several substantial issues. He raised a due process
and separation of powers facial validity challenge to a vague and overbroad federal criminal statute. He
raised a double jeopardy and due process as-applied challenge against a guidelines sentencing enhancement
from two different angles--first, that it impermissibly double counted an offense element as a sentencing
enhancement and second, that through "grouping" in a multicount conviction, it created a multiple

-‘t-

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
punishment. He challenged that the sentencing court exceeded its statutory authority by imposing
restitution for reasons not provided for in the specifically-tailored reasons defined by statute. He claimed
that the failure of defense counsel to recognize and object to these errors was ineffective assistance. He
claimed that "equitable estoppel" and "material mutual mistake" could reset the clock imposed by the AEDPA
limitations of 28 USC 2255(f). On four of these six issues, no court has had the chance to hear the claims.
The Petitioner is the FIRST litigant to raise these questions before any court in the 33-year history of the
Sentencing Guidelines era and 36 years after 18 U.S.C. 1958(a) was enacted. Indeed, this would be the first
time these questions reached the Supreme Court.
In Slack v. McDaniel, 529 U.S. 473 (2000), this Court held that "when the district court denies a habeas
petition on procedural grounds without reaching the prisoner's underlying constitutional claims, a Certificate
of Appealability should issue when the prisoner shows, at least, that jurists of reason would find it debat-able whether the petitioner states a valid claim of the denial of a constitutional right and that jurists of
reason would find it debatable whether the district court was correct in its procedural rule." Ibid, at 484,
Cf. Miller-El v. Cockrell, 537 U.S. 322 (2003) ("A Petitioner satisfies this standard by demonstrating that
jurists of reason could disagree with the district court's resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to deserve encouragement to proceed further".)
The Third Circuit did not deny that the Petitioner's claims are of substantial constitutional injury. Instead,
they argue that "jurists of reason" would not find the claims "debatable" but are silent as to why they reach
this conclusion.
Indeed, as for procedure, District Judge Wigenton entirely IGNORED the Petitioner's claims that
"equitable estoppel" and "material mutual mistake" should reset the AEDPA clock. She did not hear his
claims on the merits. Her strict, inflexible application of the AEDPA time bar poses an "unreasonable
burden" to a first-time 2255 petitioner's due process and equal protection rights, his equal access to the
courts, and his access to relief protected by the Suspension Clause. Petitioner asserts that this kind of
"unreasonable burden" is such an obstacle that Justice Sotomayor characterized 20 years ago as a
"suspension" of the writ. The Third Circuit also gave no explanation why these novel claims, not raised
previously in the 2255 context before the Third Circuit or elsewhere in other jurisdictions, were not
sufficiently "debatable".
To the contrary, based on their novelty, the Petitioner asserts he satisfied the criteria for a Certificate
of Appealability under 28 U.S.C. 2253(c). The Third Circuit, in two of their previous decisions, in Miller v.
New Jersey State Department of Corrections 145 F.3d 616, 618 (3rd Cir. 1998) and Robinson v. Johnson,

—5

JRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

313 F.3d 128, 135-137(3rd. Cir. 2001), hinted at other "equitable modifications" that would apply, in
addition to "equitable tolling", to reset the AEDPA clock. Since the Third Circuit never enumerated what
those other "modifications" were, the Petitioner properly invited.the Third Circuit to review his presented
arguments against those two decisions.
Further, the courts should review an actual innocence/legal innocence claim against a statute that the
District of Idaho recently criticized as "badly written" and "ambiguous". Petitioner asked for the scrutiny
of a validity review. The Third Circuit punted.
Instead, the Third Circuit made claims that (a) the petitioner wasn't diligent in pursuing his rights—
which is not true; (b) that the reasons for tolling weren't sufficient--which they never explained "why not";
(c) that actual innocence is not "legal insufficiency"--which Petitioner asserts is a statement that conflicts
with its own decision in a 2019 case and runs into conflict with this Court's "Blackledge-Menna doctrine"
and its recent decision in Class v. United States, 200 L.Ed.2d 37 (2018).
Petitioner asserts that the District Court and the Court of Appeals below abused its discretion, applied
the law and legal standards in unreasonable or incorrect ways, and ignored the Petitioner's valid, substantial
constitutional claims. Cf. Winthrop-Redin v. United States, 767 F.3d 1210, 1215 (11th Cir. 2014) ("a district
court abuses its discretion if it applies an incorrect legal standard, applies the law in an unreasonable or
incorrect way, follow improper procedure in making a determination, or clearly errs in making its factual
findings").
Petitioner respectfully asks that this court answer these tough questions that "could go either way". See
United States v. Giancola, 754 F.2d 898, 902 (11th Cir. 1985) (substantial defined as "a close question or
one that very well could be decided the other way"); United States v. Miller, 753 F.2d 19, at 23 (3rd Cir.
1985) (substantial question is "significant question at issue...which is novel, which has not yet been
decided by controlling precedent, or which is fairly doubtful"; also question is "important to" or "so
integral to the merits of the conviction in which a defendant is imprisoned that a contrary appellate
holding is likely to require reversal of conviction"); and United States v. Quinn, 416 F.Supp.2d 133 (D.D.C.
2006) (presented issue on appeal "that was novel and could result in a contrary ruling to one made by
(lower) court").
The Third Circuit held in Miller, supra, that "judges do not knowingly leave substantial errors
uncorrected". Unfortunately, the habeas jurisprudence and the case at bar negate that ideal. For that
reason, this Court should grant review.

— (o~~

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petition (3.2)
DATE: 08/29/2020 09:07 PM
. II. THE DISTRICT COURT AND COURT OF APPEALS ERRED IN BLATANTLY
IGNORING THE PETITIONER'S ASSERTION THAT THE DOCTRINES OF
"EQUITABLE ESTOPPEL" AND "MATERIAL MUTUAL MISTAKE" SHOULD
"RESET THE CLOCK" OR OTHERWISE OVERCOME THE AEDPA'S 2255
LIMITATIONS PERIOD.
As stated above, District Judge Wigenton IGNORED the Petitioner's argument that the "Doctrine
of Equitable Estoppel" should be evoked to overcome procedural obstacles and let his 2255 action be
heard. Instead, she snidely belittled the argument and glibly mischaracterized it as the petitioner being
"unhappy with his plea agreement".
The Third Circuit was asked to review the question of whether "equitable estoppel" and the similar
"mutual material mistake" principles enshrined in common law and contract law applied. The petitioner
stated that the Third Circuit had indicated in two previous cases that various "equitable modifications"
could be invoked to overcome limitations periods in habeas relief and there were several tools available
in addition to "equitable tolling". See Robinson v. Johnson, 313 F.3d 128, 135-137 (3rd Cir. 2002) (AEDPA
limitations period subject to "other non-jurisdictional equitable considerations"--not just "tolling"); and
Millerv. New Jersey State Department of Corrections, 145 F.3d 616, 618 (3rd Cir. 1998); cf. Holland v.
Florida, 560 U.S. 631, 645 (2010) (explaining AEDPA statute of limitations is not jurisdictional and "DOES
NOT set forth an inflexible rule requiring dismissal whenever its 'clock has run'"); citing Day v. McDonough,
547 U.S. 198, 205 (2006). The courts have never enumerated what those tools or modifications were. The
Petitioner believes that the "Doctrine of Equitable Estoppel" is one of them, that it can be used to compel
review of unlawful or unconstitutional provisions in a plea agreement, compel "reformation" pursuant to
contract law, and that courts have the authority to invoke it through its "inherent equitable powers" in
Article III of the United States Constitution. See United States v. Doe, 806 F.3d 732, 751 (3rd Cir. 2015)
(regarding inherent equitable powers, that the court has a great reservoir of equitable power to do
justice in a particular case); also Cox v. Horn, 757 F.3d 113, 122 (3rd Cir. 2014); also In Re Machne Israel,
Inc., 48 Fed.Appx. 859, 863 (3rd Cir. 2002) (equitable action for relief may be employed to prevent
manifest injustice).
Petitioner premised his argument on the long-standing holding that a plea agreement is a contract.
Puckett v. United States, 556 U.S. 129, 142 (2009); citing Mabry v. Johnson, 467 U.S. 504, 508 (1984);

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
Santobello v. New York, 404 U.S. 257, 263 (1971). When a contract is broken or otherwise the result of
a misrepresentation, a party injured by the breach will generally be entitled to some remedy. 26 R. Lord,
Williston on Contracts, 68.1 (4th Ed. 2003). Reformation is an appropriate equitable remedy. See
Restatement (Second) of Contracts, Sections 152, 155, 158 (2003). A contract with an illegal provision
cannot be enforced concerning said illegal provision. Petitioner would say an unconstitutional provision
renders and an illegal conviction and sentence. Petitioner has been delayed in bringing action via this
2255 action merely because of the plea agreement's waiver-of-appeal-rights provision. Various attorneys
have advised him he couldn't get around it (he later learned on his own that this was incorrect) and that
he didn't have a claim because his plea agreement was proper (which he also later learned on his own
was incorrect). The essence of equitable estoppel is that a statute of limitations does not run against a
petitioner who is unaware of his cause of action. Majid v. Fielitz, 700 F.Supp. 704, 706 (S.D.N.Y. 1986);
quoting Dillman v. Combustion Sig'g, Inc. 784 F.2d 57, 60 (2nd Cir. 1986), affd 891 F.2d 277 (2nd Cir.
1989). The very nature of "material mutual mistake" is that because it is a mistake, there does not have
to be foreknowledge of the error or its nature, it could have even been negligently overlooked.
However, with the plea agreement being a contract, the courts have held that parties may not
r

stipulate to an unlawful sentence in a plea agreement. See United States v. Peppers, 899 F.3d 211,225
(3rd Cir. 2018), citing United States v. Symington, 781 F.3d 1308, 1313 (11th Cir. 2015) (court has no
power to impose an unlawful sentence even if stipulated to by parties in.a plea agreement). By accepting
the contractual plea agreement, Petitioner changed his position to his detriment--by taking on an
obligation of several years in prison. It is reasonable to assume that a prosecutor would not draft an
unconstitutional plea agreement or the court or the Petitioner's own counsel would not endorse the
propriety of an illegal provision. Perhaps they did not know (i.e. the negligence of material mutual
mistake). Because his own counsel, the prosecution, the probation office, and the court signed off
on the plea agreement, the petitioner was under the impression that the contractual terms were proper
and legal. To invoke equitable estoppel, reliance must be reasonable. Vadino v. A. Valey Engineers,
903 F.3d 253, 263 (3rd Cir. 1990); see also Heckler v. Community Health Services of Crawford City,
Inc:, 467 U.S. 51, 59 (1984) (that a "plaintiffs reliance on a government's agency's conduct must be
reasonable in that (plaintiff) did not know nor should it have known that its adversary's conduct was
misleading"). Here, in the case at bar, the Petitioner reasonably relied on the errors in his plea
agreement being "proper" much to his detriment. Buttry v. General Signal Corp., 68 F.3d 1488, 1493
(2nd Cir. 1995); citing Heckler, supra; also Sinacole v. iGate Capital, 287 Fed.Appx. 993, 995 (3rd Cir.

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

2008); In Re RFE Indus., Inc., 283 F.3d 159, 164 (3rd Cir. 2002). Equitable estoppel rises when a party,
by his conduct, either intentionally or unintentionally, leads another in reliance upon conduct to change
position to his detriment. As a result, the person whose conduct has created the situation is estopped
from asserting his rights against the party so misled. See Bechtel v. Robinson, 886 F.2d 644, 650 (3rd
Cir. 1989).
However, mistakes can be made and are often made. Between the doctrines of equitable estoppel
and material mutual mistake, such errors can and should be corrected when discovered. Because contracts
are typically actions in equity, relief is not automatically barred by a statute of limitations but reviewed
under the equitable doctrine of LACHES. While a statutory limitations period can be considered in the
calculus, the doctrine of laches relies on one main question-whether it is too late to recover from an
injury. See Tower v. Allstate Insurance Co. 1994 U.S.Dist. LEXIS 20539 (D.Del 1994). "Law and Equity
merged long ago in the federal courts which allows a party to bring both types of claims in the same
action and 'it is now clear that a single claim or cause of action includes all remedies, legal and
equitable'." 18 Charles Alan Wright and Arthur R. Miller, Federal Practice & Procedure, 4410 (3rd Ed.
2017), citing Lubrizol Corp. v. Exxon Corp., 929 F.2d 960, 964 n.3 (3rd Cir. 1991).
Whether intentionally or unintentionally (or inadvertently), the Government drafted a plea
agreement with a provision concerning the calculation of a Petitioner's sentencing guidelines range
that runs afoul of his constitutional rights. Under the principles of contract law, the Government may
be equitably estopped from asserting a statute of limitations as a defense where a defendant was
delayed or obstructed from bringing a lawsuit to remedy such injuries. Cf. Cerbone v. International
Ladies Garment Workers Union, 708 F.2d 45, 50 (2nd Cir. 1985); also Keaby v. Carey, 706 F.2d 377,
382 (2nd Cir. 1983); also Abbas v. Dixon, 480 F.3d 636, 642 (2nd Cir. 2007) (that doctrine of
equitable estoppel requires a petition who was induced by misrepresentation to have refrained from
filing a timely action). There is no prejudice to the government by correcting this error and enforcing
the Constitution.
District Judge Wigenton IGNORED the Petitioner's attempts to invoke the doctrine of equitable
estoppel to overcome the AEDPA statute of limitations period under 28 U.S.C. 2255(f). She did not
even give it "short shrift". At a minimum, she glibly and condescendingly mischaracterized the
Petitioner's argument as "he was dissatisfied with his plea agreement" and his concerns received no
further attention.

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
This Court is in a position to remedy this error and provide relief. Further, the Petitioner thus
respectfully asks this Court to review this question in light of clarifying whether the doctrine of
"equitable estoppel" and its counterpart "material mutual mistake" can compel reformation and
resentencing, and whether it is one of the "equitable modifications" or tools suggested as actionable
in habeas relief in Robinson v. Johnson, 313 F.3d 128 (3rd Cir. 2002) and Wliller v. New Jersey State
Department of Corrections, 145 F.3d 616 (3rd Cir. 1998).

-to-

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: Petition (3.3)
DATE: 08/29/2020 05:52 PM
III. THE DISTRICT COURT AND THE COURT OF APPEALS ERRED IN DENYING'
THIS FIRST-TIME PETITIONER'S ACCESS TO 2255 RELIEF BECAUSE THE
AEDPA LIMITATIONS VIOLATE THE SUSPENSION CLAUSE AND HIS RIGHTS
TO DUE PROCESS AND EQUAL PROTECTION OF LAW
(Suspension Clause, Due Process, Equal Protection of Law, Equal Access
to Courts, and Eighth Amendment claims)
Petitioner asserts that the District Court and Court of Appeals both erred through their strict
adherence to the AEDPA limitation and foreclosed consideration of his first 2255 petition's merits. The
result is an absolute denial of much-needed constitutional scrutiny of his conviction and sentence. A
Certificate of Appealability should have been issued as the Petitioner made the requisite substantial .
showings of the denial of a constitutional right and that the issues were sufficiently "debatable" amongst
reasonable jurists.
The AEDPA limitations period which was strictly enforced against the Petitioner raises serious
constitutional questions and possibly renders the habeas remedy for first-time 2255 petitioners (especially
those with novel, never-before-heard issues) ineffective and inadequate. See Triestman v. United States,
124 F.3d 361, 373-380 (2nd Cir. 1997). The Supreme Court remarked that "denial of a first federal habeas
petition is a particularly serious matter for that dismissal denies the petitioner the protection of the Great
Writ entirely, risking injury to an important interest in human liberty". Lonchar v. Thomas, 517 U.S. 314,
116 S.Ct. 1293, 1299 (1996) (disapproving of dismissals of delayed first habeas petitions).
Petitioner raises to this Court's attention two cases which seem to have been ignored by two decades
of habeas litigation which go to the heart of the very question of the Suspension Clause, AEDPA, and
first-time 2255 motions-including one by a current sitting associate justice of this Court:--Rosa v.
Senkowski, 1997 U.S.Dist LEXIS 1177 (S.D.N.Y. 1997) ("Rosa I") and Rodriguez v. Artuz, 990 F.Supp. 275
(S.D.N.Y. 1998). In Rosa I, Judge Sweet gave a lengthy, reasoned explanation on how the AEDPA's
limitations period violates due process and the Suspension Clause. In Rodriguez, Associate Justice
Sotomayor, when a district judge, indicated the dispositive question was when AEDPA's limitations strictly
enforced posed an "unreasonable burden" because it left a petitioner without an opportunity to be heard
on the merits. Rodriguez, supra, at 280, 282.
When courts otherwise would be required to "answer the difficult question of what the Suspension

— (UL—

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
Clause 'protects', there is a reason to avoid the restrictive construction of AEDPA, especially when there
is no clear intent from Congress that it intended restrictive interpretation and there is no alternative
forum for federal review". See INS v. St. Cyr, 533 U.S. 289, 301 n.13, 314 (2001); cf. Swain v. Pressley,
430 U.S. 372, 381 (1977) ("a restriction or modification of the Writ of Habeas Corpus constitutes
suspension if it leaves Habeas Corpus inadequate or ineffective to test the legality of a person's
detention"); cf. Triestman, supra, at 378-379, and n.21 (where inability of petitioner to even raise
actual innocence claim raises serious questions under the Due Process Clause and Eighth Amendment,
leads to Suspension Clause claim). While several courts cite the Supreme Court's decision in Felker v.
Turpin, 518 U.S. 651 (1996) on the Suspension Clause, it did not address first-time 2255 petitions--only
2254 and second and successive petitions.
There is a stark issue of whether 2255(f)(3) renders access to the courts nugatory because the high
court rarely identifies a "retroactively applicable" case until the window for relief has closed. There is an
equal protection of law argument to be made because the Petitioner has been denied relief that other
prisoners seem to get in direct review or AEDPA-timely habeas review. If I had argued a sentencing
guidelines miscalculation error on direct appeal that was considered after June 2018, I would get the full
benefit of the Supreme Court's decision in Rosales-Mireles v. United States, 138 S.Ct. 1897 (2018),
immediately after that case was decided. If I had filed a timely 2255 motion, I might get it reviewed under
Rosales-Mireles. However, despite having a similar sentencing guidelines calculation error, and the holding
that over-sentencing errors bring the judiciary and the justice system into disrepute, I cannot get heard
on an AEDPA-untimely 2255 petition for that same relief? There is no equity in that. "Equal protection
of the laws requires equal operation of the laws upon all persons in like circumstances". Maxwell v.
Bugbee, 250 U.S. 525 (1919); also Louisiana ex rel. Francis v. Resweber, 329 U.S. 459 (1947) (that "so
long as law applies to all alike, requirements of equal protection are met"), Louisville Gas & Electric Co.
v. Coleman, 277 U.S. 32 (1928) ("Equal protection means rights of all persons must rest upon same rule
under similar circumstances, and applies to exercise of all powers of state which can affect individuals").
Once a sufficient reason for delay is advanced (and the Petitioner argued several reasons he asserts should
suffice), equal protection of law and equal access to the courts prevents the Government from imposing
more rigorous standards on petitioner's seeking belated appeals than those seeking timely appeals.
The rules that 2255(f) gave birth to pose nearly insurmountable "byzantine" obstacles to 2255 relief.
They are creating a situation where one prisoner is told "sorry, you're late, the constitution doesn't have
effect here, you fail on procedure, go do you time" and another is told "welcome in, here's relief. However,

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

the divide between direct review and collateral review is shrinking--and this was what Judge Wigenton
ignored when denying the Petitioner access to Rosales-Mireles relief because she stated its stance on the
plain error rule, Fed.R.Crim.P. 52, was a solely direct review posture--is a specious assertion. The First
Circuit has recognized several times that the "plain error" standard on direct review is essentially similar,
indistinguishable, and even interchangeable with the "miscarriage of justice" standard in collateral review.
See United States v. Velez-Luciano, 814 F.3d 553, 565 n.15 (1st Cir. 2016); also United States v. Cabrera-Rivera, 893 F.3d 14, 30 (1st Cir. 2018); United States v. Garay-Sierra, 885 F.3d 7, 12 (1st Cir. 2018).
The inability to obtain benefits from cases like Rosales-Mireles, Garza v. Idaho, or Davis v. United States,
creates classes of petitioners with differing levels of access-even if it creates a "class of one"~and that
should not stand in a country where all persons are equal before the law. This is especially salient when
' district courts and appellate courts can hold a case is "retroactively applicable" at any time when the
interests of justices require it. See Butterworth v. United States, 775 F.2d 459, 464 (1st Cir. 2015);
Weigan v. United States, 380 F.3d 890, 892 (6th Cir. 2004;) United States v. Lopez, 248 F.3d 427, 431
(5th Cir. 2010); United States v. Swinton, 333 F.3d 481,487-491 (3rd Cir. 2003). This creates an uneven
playing field.
In Harris v. Nelson, the Supreme Court remarked that "the very nature of the writ demands that it be
administered with the initiative and flexibility essential to insure that miscarriages of justice within its
reach are surfaced and corrected." Harris v. Nelson, 294 U.S. 286, 290-292 (1969). The AEDPA limitations
and the byzantine morass of judge-made rules around it works against that fundamental principle. The
focus of today's judges no longer is the finding and correcting constitutional injury but quickly finding a
way to procedurally bar someone from relief without any consideration of their claims. This is plain wrong.
This operates against the rational that led the Supreme Court to state the need to correct a miscalculated
sentence in cases like Rosales-Mireles v. United States, 138 S.Ct. 1897 (2018), because the failure of
justice to provide the seemingly obvious relief from constitutional injury casts a shadow of shame against
the call to "ensure the fairness and integrity, and prevent the erosion of public confidence in our judicial
system". Ibid, at 1908.
But today, it seems AEDPA worked its purpose: giving judges a tool to clear overwhelmed dockets at
the expense of, and despite, the merits. However, when it comes to a first-time 2255 petitioner, the
"abuse of the writ" doctrine that undergirded the need for AEDPA reforms seems to be a flimsy veneer
that doesn't make sense. A first-time filer cannot be held to have "abused" the writ. It seems that the

-13'

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
AEDPA has let the courts forget that:
[The] "overriding responsibility of (the) court is to the Constitution of the United States,
no matter how late it may be that a violation of the Constitution is found to exist...we
must be deaf to all suggestion that a valid appeal to the Constitution, even by a guilty
man, comes too late, because courts...were not early able to enforce what the
Constitution demands".
-- Chessman v. Teets, 354 U.S. 156, 165 (1957). Petitioner further asserts that perhaps 28 U.S.C.
2255(f) may be unconstitutional because such a short statute of limitations is deliberately "designed to
defeat the remedy" and violates due process. See Edward v. Kearzey, 96 U.S. 595, 603 (1878). The
various litigation post-AEDPA in which relief was denied because of the limitations period and the
resulting procedural tangle runs afoul of many of this Court's rulings that lower courts were obliged to
hear habeas petitions even when filed many years after a prisoner's conviction became "final". See
Chessman, supra, (seven years after conviction); Uveges v. Pennsylvania, 335 U.S. 437, 438-439 (1949)
(seven years after conviction); Palmerv. Ashe, 342 U.S. 134, 137 (1951) (eighteen years after); Herman
v. Claudy, 350 U.S. 116, 123 (1957) (seven years after). AEPDA's time limitations become a denial of
justice seeming only to defeat the remedy for this unassisted, untrained first-time petitioner with novel,
never-before-raised issues that happened coalesce too late to meet an arbitrary deadline set by a
Congress long ago that put on the facade of being "tough on crime" to win votes and didn't Care about
the painful, damaging, long-term consequences to the "interests of justice". This is a perfect example
of the "unreasonable burden" that impedes on due process and clearly violates the Suspension Clause.

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petition (3.4 - 3.5)
DATE: 09/22/2020 10:23 PM
IV. THAT THE COURT OF APPEALS ERRED BECAUSE THEIR APPLICATION
OF BOUSLEY v. UNITED STATES, 523 U.S. 641 (1998) THAT "ACTUAL
INNOCENCE" DOES NOT MEAN "LEGAL INSUFFICIENCY" CONFLICTS
WITH THEIR DECISION IN UNITED STATES v. JAMES, 928 F.3d 247
3rd Cir. 2019) THAT "LEGAL INNOCENCE COUNTS AS INNOCENCE"
AND CONFLICTS WITH THIS COURT'S "BLACKLEDGE-MENNA DOCTRINE"
AND ITS DECISION IN CLASS V. UNITED STATES, 200 L.Ed.2d 37 (2018)
If a statute is constitutionally invalid, the Government has no right to prosecute a defendant
for committing it. Indeed, as this Court has held, "virtually all rights of criminal defendants" are
"merely...right[s] not to be convicted" of an offense. See Flanagan v. United States, 465 U.S. 259, 267
(1984). However, the Third Circuit recently held that "legal innocence counts as innocence" in United
States v. James, 928 F.3d 247 (3rd Cir. 2019). But, in the case at bar, the Third Circuit's application in
the order denying access to 2255 relief through a Certificate of Appealability mentioned the statement
in Bousley v. United States, 523 U.S. 641 (1998) that "actually innocence" does not mean "legal
insufficiency". Petitioner asserts that this claim in Bousley runs into a head-to-head conflict with James
and with this Court's "Blackledge-Menna Doctrine". It also conflicts with this Court's recent decision in
Class v. United States, 583 U.S.__ , 138 S.Ct. 798, 200 L.Ed.2d 37 (2018).
If the criteria for habeas relief under Section 2255 is that someone is held in violation of their rights
under the Constitution, a claim of "legal innocence" should be potent to open the doors. Indeed, someone
arrested and held under an invalid statute has been a victim of a trespass against his person. Elkison v.
Deliesseline, 8 F.Cas 493 (D.SC 1823) (regarding eligibility for habeas corpus versus "de homine
replegiando" relief). To claim that the requisite standard of innocence doesn't include "legal innocence",
does not include a claim that the Government potentially did not have the power to prosecute or
arrest in the first place seems to mock the principles of one's "basic liberty interest" and substantive
due process.
This is a question that must be resolved between James, Bousley, Class, and the Blackledge-Menna
doctrine, for consistency's sake and for the proper development of the law.

-is-

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

V. THAT THE DISTRICT COURT AND THE COURT OF APPEALS ERRED
IN DECIDING THAT THE PETITIONER HAS NOT BEEN DILIGENT IN
PURSUING HIS RIGHTS
Petitioner counters by stating that he could be nothing less than "reasonably" diligent in pursuing
his rights before filing this 2255 action. As stated throughout, the constitutional injuries herein pose
entirely novel claims--never before raised nor argued; never before considered by any court. In Reed
v. Ross, 468 U.S. 1 (1984), this Court held "that a claim is so novel that its legal basis was not
reasonably available to counsel" can constitute cause for a procedural default and meet the "cause
and prejudice" test. Ibid, at 16.
Novel claims never come fully formed, ab initio. They never materialize out of thin air in an
instant or twinkling of an eye. Inchoate questions asked in 2016 that his defense counsel quickly
disregarded never arrive as clear, learned, polished briefs. Indeed, a defense attorney or a criminal
defendant might not be aware of what they really have in an argument--they might not be "sufficiently
aware of a question's latent existence". Reed, supra, at 15. It took time to investigate and develop
the research to the point where the argument for the novel claims raised in the District Court and to
the Court of Appeals were clear and cogent. Even before Judge Wigenton, and the Third Circuit panel,
their "novelty" was ignored-as the Supreme Court observed in Reed v. Ross that it is entirely likely
that "a court will fail to appreciate the (novel) claim and reject it out of hand", Reed, supra, at 15.
Indeed, the Petitioner's facial challenge against the 18 U.S.C. 1958(a) could not be possible
without various courts deciding Gordon in 2017 and Danforth in 2020 together-both subsequent to
his 2016 sentencing. Petitioner's double jeopardy and due process challenges to the USSG 2A1.5(b)(1)
four-level sentencing enhancement have never been argued before and required piecing together
thoughts from dozens of cases, some not available at the time of his December 2016 sentencing.
Petitioner never found a single other case in which "equitable estoppel", "material mutual mistake"
and errors in plea agreements were discussed together in a 2255 motion context.
These novel claims required substantial research and substantial research requires diligence. The
reading of several hundreds of federal court decisions in an institutional "electronic law library" that
was updated sporadically (the Bureau of Prisons abandoned physical "book" law libraries several years
ago), where BOP hiring freezes and staff shortages often required the frequent closure of law libraries
so that an "education/library" officer could be "augmented" to serve as a custody officer in a housing

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
unit, in institutions that locked-down frequently due to violence or drug overdoses often for weeks at
a time. These cases don't get read all-together in one-night. It involved piecing together pieces of
these hundreds of cases to put together a cogent argument. This takes time--and in many cases
takes years. In Reed v. Ross--one of a multitude of examples-a 1969 conviction finally obtained
the begged-for examination of a constitutional error in 1984.
In the interim, between the Petitioner's sentencing in late December 2016 and his filing in midJune 2019, he attempted to reach out to his former defense attorney only to be ignored. He reached
out to over 130 different attorneys, law professors, law school clinics, as well as civil rights and
appellate advocacy organizations, by mail, email, and through third parties. He was frequently
told (incorrectly) "you don't have a claim", others told him (incorrectly) "you can't get around your
plea agreement waiver". Mercenary lawyers wanting huge sums in retainers told him "too bad"~
that without money he'd be without help. Law professors at Duke, Ohio State, Georgetown,
Rutgers, and several other schools told him "interesting issues, but far too complex for second-year
law students to take on in a clinic or seminar given the academic-term's time constraints and that
usually our litigation focuses on simpler issues" or that they "could not take on cases given the
rigors of their teaching schedule". Advocacy organizations often responded months later with
form letters saying essentially: "We lack the resources to take everyone's case. Good luck".
Unfortunately, it is too easy for lawyers on the outside to ignore someone on the inside
imploring for help or for some advice. It is too easy for the entire broken system to say, "You're
on your own, good luck". More often than not the claims never get filed because they never get
properly researched by unskilled, often illiterate inmates who can't navigate a law library-much
less one that is now on computers and not in physical books. Even for an educated inmate it takes
time to learn the skills, learn how to hone the argument, format and present. All in a hostile place
designed to thwart attempts at regaining liberty. But when a cogent filing is presented, to
flippantly dismiss it as lacking sufficient "diligence" is disingenuous and often insulting.
That this petitioner, amongst many others, could not hire an attorney simply due to his
poverty, and that assistance was impossible to find, might pose an equal protection, equal access
claim—it exposes a great weakness and brokenness in the criminal justice system. If someone
is suffering a constitutional issue, most often justice is out of reach just because of a question
of money.
Nevertheless: How much diligence is required? In Holland v. Florida, this court said

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

"(d)iligence required for equitable tolling is reasonable" diligence--and "not maximum, extreme,
or exceptional diligence". Holland v. Florida, 560 U.S. 631,653 (2010). A petitioner must show
first that he is pursuing his rights diligently and that some extraordinary circumstance stood in
his way". Holland, supra, at 649; quoting Pace v. Diguglielmo, 544 U.S. 408, 418 (2005).
Reasonable diligence tends to be recognized through a "subjective test considered in light of
the circumstances of the case". Ross v. Varano, 772 F.3d 784, 799 (3rd Cir. 2013); Schleuter
v. Varner, 384 F.3d 69, 74 (3rd Cir. 2004) ("Due diligence doesn't require maximum feasible
diligence, but it does require diligence in the circumstances"). The Third Circuit also held that
"(e)quitable tolling can be triggered only when 'the principles of equity would make rigid
application of a limitations period unfair, such as when a (prisoner) faces extraordinary
circumstances that prevent him from filing a timely habeas petition AND the prisoner has
t

exercised reasonable diligence in attempting to investigate and bring his claims.'" LaCava
v. Kyler, 398 F.3d 271,275-276 (3rd Cir. 2005); also Holland, supra, at 653-654. Petitioner
asserts that he passed the standard of "reasonable diligence" and the circumstances above-especially the novelty of the claims--should be sufficient to establish "cause" and overcome
"procedural default".
Petitioner asserts that the District Court and the Court of Appeals erred by failing to
regard the novelty of the constitutional errors raised as sufficient cause to overcome procedural
default and warrant equitable tolling. They fell back to their default position of the need for
finality--but finality has never provided "sufficient reason for federal courts to compromise
their protection of constitutional right" in habeas jurisprudence. Reed, supra, at 15.

-A?-

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petition (3.6 a)
DATE: 08/29/2020 09:07 PM
VI. THE DISTRICT COURT AND COURT OF APPEALS BELOW ERRED BY
DECLINING TO ADJUDICATE THE MERITS OF THE PETITIONER'S
2255 MOTION
In declining the Petitioner's Certificate of Appealability, the Third Circuit did not refute that the
Petitioner had substantial merits for his seeking 2255 relief. Indeed, the absence of any criticism is ’
telling. The Petitioner raised several novel claims of substantial denials of constitutional rights. Here
below, the Petitioner reiterates his challenges to the validity of the 18 U.S.C. 1958(a) statute as void-for-vagueness and overbroad. He states two distinct double jeopardy and due process challenges to
' the application of a four-point sentencing enhancement under 2A1.5(b)(1). These have never been heard
by any other court in the 30+ years they have been in effect. He challenges his restitution order and the
court's exceeding its authority under statute. He raises an ineffectiveness claim. However, none of these
were adjudicated below as his petition was improperly barred by procedural reasons and was denied a
remedy to his constitutional errors. We are in an era where the AEDPA has denied access to the courts
for issues of considerable constitutional error:
"That a party should have a right to his liberty, and no remedy to obtain it, is an
obvious mockery, but it is still greater to suppose that he can be altogether precluded
from his constitutional remedy to recover his freedom".
-- Elkison v. Deliesseline, 8 F.Cas. 493 (D.SC 1823).
A. PETITION HAS RAISED A SUBSTANTIAL SHOWING OF THE DENIAL OF
CONSTITUTIONAL RIGHT ON ISSUE THAT AN OFFENSE OF CONVICTION,
18 U.S.C. 1958, IS VOID-FOR-VAGUENESS AND OVERBROAD
(Due Process and Separation of Powers claim)
Petitioner asserts that 18 U.S.C. 1958 is unconstitutionally invalid because it is void for vagueness
and overbroad. In a recent court deceision, it was described as "ambiguous" and "badly written" The
previous two courts to hear issues regarding its ambiguity, the First and Sixth Circuits, issued two
different interpretations of the statute. Petitioner asks for an examination of the statute's validity and
requests that the court invalidate the statute and vacate Count Two of his conviction. This claim is that
the invalidity of 1958(a) implicates the Due Process Clause of the Fifth Amendment and the Vesting
Clauses of Articles I, I], and III of the Constitution. This is an actual innocence/legal innocence claim.
See United States v. James, 928 F-3d 247 (3rd Cir. 2019) ("legal innocence counts as innocence").
In United States v. Danforth, Docket No. 2:18-CR-00398-BLW, 2020 U.S.Dist LEXIS 26216 (D.Idaho

'

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

2020), Judge Winmill lamented that the 1958(a) statute is ambiguous regarding its "unit of prosecution"
and noted there is a disagreement in how to interpret the statute amongst two circuits. Judge Winmill
also noted that the Ninth Circuit has never interpreted the 1958(a) language and that "authority is sparse".
In United States v. Gordon, 875 F.3d 26, 35 (1st Cir. 2017) and United States v. Wynn, 987 F.3d 354,
359 (6th Cir. 1993),the two courts concluded that "separate phone calls" which relate to one plan to
murder one victim is one crime. However, the Sixth Circuit reached a "contrary result", eight years
after deciding Wynn, in United States v. Ng, 26 Fed.Appx. 452, 462 (6th Cir. 2001), which affirmed a
multiplicitous interpretation of the statute, holding: "the plain language of the statute makes clear that
the evil it intended to proscribe was the interstate travel and use of facilities in interstate commerce
with the intent that a murder for hire be committed". Ibid.; Cf. United States v. Steward, 420 F.3d
1007, 1012 (9th Cir. 2015) ("prosecution is multiplicitous when the government charges a defendant
two or more times for what is essentially a single crime"). In Danforth, Judge Winmill noted that
legislative intent provides comfort to both sides' interpretations as they are "able to find statements
supporting their positions". This vagueness in the statute allows law enforcement and prosecutors too
much opportunity for arbitrary enforcement. See Kolender v. Lawson, 461 U.S. 352, 357 (1987) (perhaps
the most important part of vagueness doctrine is the request "that a legislature establish guidelines to
govern law enforcement" to "not encourage arbitrary and discriminatory enforcement"), quoting Smith
v. Goguen, 415 U.S. 566, 574 (1974); City of Chicago v. Morales, 527 U.S. 41, 56 (1999) (a statute
should not "authorize" or "encourage" arbitrary and discriminatory enforcement"); see also United States
v. Davis, 204 L.Ed.2d 757, at 765, 139 S.Ct. 2319 (2019) ("Vague statutes threaten to hand responsibility
for defining crimes to relatively unaccountable police, prosecutors, and judges, eroding the people's
ability to oversee the creation of laws they are expected to abide").
Indeed, the Petitioner points the court's attention several cases where defendants were charged with
the multiplicity theory of the unit of prosecution:
* In Danforth, supra, she was charged with 5 counts of 1958(a) for four phone calls and one mailing,
pleaded guilty to 2, sentenced to 1 count under a "rule of lenity" decision.
* In United States v. Bloom, Docket No. 05-CR-178-AVC, D.Conn, Bloom received 240 months, 2 counts
of 1958(a), for one victim, one plot.
* In United States v. Mandell, 2014 U.S.Dist LEXIS 155253 (N.D.III. 2014), Docket No. 12-CR-842, two
counts, one victim, one plot.
* In United States v. Barrett, 2015 U.S.Dist LEXIS 29249 (E.D.Ky 2015), 2 counts--one facility, one travel.
* In Johnson v. United States, 2016 U.S.Dist LEXIS 100687 (W.D.Tenn 2016), Docket No. 13-2219-STA-tmp

- %Q

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
two counts, 1958(a) conspiracy, 1958(a) travelling.
* In Finley v. Payne, 2018 U.S.Dist. LEXIS 208275 (E.D.Mo. 2018), Docket No. 4:97-CR-455-SNL. 3 counts
of 1958(a) for using mails in one plot, one victim.
* In United States v. Schueller, 136 F.Supp.3d 1074 (D.Minn. 2015), 3 counts of "using mails", one plot,
one victim.
These are just a few examples of a 30-year history of how the 18 U.S.C. 1958(a) statute has been variously
employed on both interpretations.
While the Petitioner's conviction conforms with the Gordon interpretation, this may be only due to his
early acceptance of a plea agreement. Had this led to indictment or trial, he could have faced upwards of
9 counts for 7 phone calls and 2 face-to-face meetings where a plot was discussed. There are likely many
other inmates beyond those cited above--potentially hundreds facing conviction or already convicted and
sentenced--with their information or indictments based on alternative interpretations of the 1958(a)
statute. This shows that the law has fatal flaws and this ambiguity should be met with a determination of
the statute's validity.
Petitioner asserts that that he possesses standing to exercise the potent right to mount a facial
challenge to the 18 U.S.C. 1958(a) statute. When uncertain language of a statute promotes the arbitrary
and discriminatory enforcement, a person clearly within statutory bounds may be permitted to challenge
its validity and constitutionality. See Gooding v. Wilson, 405 U.S. 518, 521 (1972); citing Coates v. City
of Cincinnati, 402 U.S. 611,619-620 (1971) (White, J. dissenting) ("Although a statute may be neither
vague, overbroad, nor otherwise invalid against a particular defendant, he is permitted to raise its
vagueness, or unconstitutional overbreadth as applied to others"). An otherwise valid statute may become
invalid by change in the conditions to which it is applied. Nashville, Chattanooga and St. Louis Railway v.
Walters, 294 U.S. 405, 415 (1935); Abie State Bank v. Bryan, 282 U.S. 765, 772 (1931).
Petitioner asserts that the amibiguity allows prosecutors and federal law enforcement to arbitrarily
charge and thus cannot survive an overbreadth challenge. This court has held "a statute which either
forbids or requires the doing of an act in terms so vague that men of common intelligence must
necessarily guess at its meaning and differ as to its application violates the first essential of due process
of law". Connally v. General Constr. Co. 269 U.S. 385, 391 (1926). If the 1958(a) statute cannot pass a
validity examination, as Petitioner asserts it cannot, "the court had no power to enter the conviction or
impose the sentence" on that count. See United States v. Brace, 488 U.S. 563, 569 (1989), citing
Blackledgev. Perry, 417 U.S. 21, 30 (1974); Menna v. Nevy York, 423 U.S. 61 (1975); also Haynes v.
United States, 390 U.S. 85 (1968). This constitutional infirmity would implicate the "very power of the

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

(Government) to prosecute" the Petitioner; see Blackledge, ibid.; also Class v. United States, 583 U.S.
138 S.Ct. 798, 801-802 (2018). An invalid statute is a fundamental defect of law that results in a
miscarriage of justice that is "inconsistent with the rudimentary demands of fair procedure". United
States v. DeLuca, 889 F.2d 503, 506 (3rd Cir. 1989); citing United States v. Addonizio, 442 U.S. 178,
185 (1979); which quoted Hill v. United States, 368 U.S. 424, 428 (1962).
As Justice Gorsuch recently wrote in United States v. Davis, "In our Constitutional order, a vague
law is no law at all...When Congress passes a vague law, the role of the Court under our Constitution is
not to fashion a new clearer law to take its place but to treat the law as a nullity and invite Congress to
try again." Davis, supra, at 764. The Petitioner argues: so, too, here.

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petition (3.6 b)
DATE: 08/29/2020 09:06 PM
B. PETITIONER HAS RAISED A SUBSTANTIAL SHOWING OF DENIAL OF
CONSTITUTIONAL RIGHT ON ISSUE OF "IMPERMISSIBLY DOUBLE COUNTED"
SENTENCING ENHANCEMENT
(Double Jeopardy and Due Process claim)
Petitioner asserts to this court that the application of a four-point enhancement under United States
Sentencing Guidelines provision 2A1.5(b)(1) has subjected him to an unconstitutional injury in two
distinct ways that requires the intervention of this court to correct.
First, 2A1.5(b)(1) duplicates verbatim the "critical element" of the offense of conviction--18 U.S.C.
1958(a)--in an error that the courts have prohibited as "impermissible double counting". Second, this
error takes on the dynamic of a "multiple punishment" because of the effects of "grouping" the
Petitioner's two convicted offenses under the higher of the calculated offense levels, pursuant to USSG
3D1.2 and 3D1.3. These are two ways the Petitioner's sentence violates the Double Jeopardy Clause.
Further, Petitioner argues that this resulting sentencing guidelines miscalculation is an error that
constitutes a violation of the Due Process Clause.
The commentary to USSG 1B1.3 states clearly that "conduct which is not formally charged or is not
an element of the offense of conviction may enter into the determination of the applicable guidelines
range". An element of the offense of conviction CANNOT be used as a sentencing enhancement. However,
the "critical element" of 1958(a) is that there is an offer "as consideration for the receipt of, promise
or agreement to pay anything of pecuniary value" for committing a murder. See United States v. Ritter,
989 F.2d 318, 321 (9th Cir. 1993) (describing this clause as the "critical element"); also United States
v. Chong, 419 F.3d 1076, 1079, 1081-82 (9th Cir. 2005) (where it is the "critical element" and
"constructed strictly"); cf. United States v. Frampton, 382 F.3d 213, 217 (2nd Cir, 2004) (that this
element "proscribes a very limited category of behavior"); United States v. Wicklund, 114 F.3d 151, 154
(2nd Cir. 1997) (that this conduct proscribed is the very core of conduct Congress intended to prohibit).
By cross-reference, the sentences for 1958(a) convictions are typically calculated using the "underlying
criminal conduct" under USSG 2A1.5. A defendant begins at a base offense level of 33 and is typically
assessed a four-point enhancement under 2A1.5(b)(1) "if the offense involved the offer of anything of
pecuniary value for undertaking the murder". For 35 years since the enactment of 18 U.S.C. 1958, and
30 since the implementation of the 2A1.5, this duplication of the 1958(a) offense element as a sentencing

-Z3-

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

enhancement has gone unnoticed. Indeed, USSG 2A1.5 was not originally meant for 1958(a) convictions.
It was originally meant to be applied in convictions under Section 351(d), 371, 373, 1117, or 1751(d) of
Title 18 for which 2A1.5(b)(1) is conduct beyond the elements of the offense. See United States v. Blum,
534 F.3d 608, 612 (7th Cir. 2008) (that enhancing a sentence only allowed when it is an "additional or
separate aspect of a defendant's conduct"--i.e. not an offense element). None of those statutes use this
specific language regarding consideration. Therefore, because the "critical element" of 18 U.S.C. 1958(a)
is being punished again as a sentencing enhancement, this is "impermissible double counting". See United
States v. McCullah, 76 F.3d 1087, at 1111-1112 (10th Cir. 1996) (Petitioner is "essentially condemned
twice for the same culpable act"). See e.g. Jones v. United States, 527 U S. 373, 398 (1999) ("finding
aggravating factor(s) based on matters already taken into account by the offense of conviction"); United
States v. Reevey, 364 F.3d 151, 158 (4th Cir. 2004) ("when a provision of a sentencing guideline is
applied to increase punishment on the basis of a consideration that has been accounted for by the
application of another guideline provision or by application of a statute"); United States v. Beith, 407
F.3d 881, 889 (7th Cir. 2005) ("use of an enhancement based on conduct that encompasses an element
of the offense is 'impermissible double counting' if the offense itself necessarily involves the same
conduct as the enhancement"); United States v. Senn, 129 F.3d 886, 897 (7th Cir. 1997) (same); United
States v. Haynes, 582 F.3d 686, 710 (7th Cir. 2009) (it is "impermissible double counting when the
same underlying facts that establish an element of the base offense are used to justify an upward
enhancement"); United States v. Lallemand, 989 F.2d 936, 939 (7th Cir. 1993) (same).
Petitioner can only argue this first issue by comparable applications of case law regarding
"impermissible double counting" in other statutes where an element of the statute was duplicated
as a sentencing enhancement or how in death penalty cases, aggravating factors cannot be used at
sentencing if they duplicate an offense element. There has not been a single case concerning this error
in 1958(a) convictions like that suffered by the Petitioner. No one else has noticed it, raised it, and
no court has decided it.
For example, in United States v. Sinclair, 74 F.3d 753 (7th Cir. 1995) the defendant challenged
enhancement for "abuse of trust" in his 18 U.S.C. 215(a)(1) conviction. Because "Abuse of trust" is an
element of Section 215(a)(2) and not (a)(1), Sinclair lost. However, the court noted that "when an
. aggravating factor is a necessary element of the crime, a court may not employ enhancement for the
same factor. Ibid, at 763. Also, the court "determined that it can assume an offense level before

-ZW-

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
enhancements accounts for every element of the crime". Ibid. Relying on this holding in Sinclair, ibid.,
Petitioner asserts that the base offense level of 33 in USSG 2A1.5 should encompass the conduct
necessary for conviction in 1958(a) cases-including the "critical" consideration element complained of
here. However, it is salient to note, though, that the sentencing guideline directly connected to 18
U.S.C. 1958(a)--namely, 2E1.4--begins at a base offense level of 32 and provides for no enhancements.
Comparatively, in the Third Circuit, this principle was applied in United States v. Knobloch, 131 F.3d
366,' 373 (3rd Cir. 1997) (where the court sentences defendant for both 924(c) and the underlying drug
trafficking offense, court may not impose enhancements for possession of firearm to the drug trafficking
offense). See also United States v. Rodgers, 981 F.2d 497, 500 (11th Cir. 1993).
Petitioner also challenges the additional impact that USSG 2A1.5(b)(1) has when applied through
"grouping" under USSG 3D1.2 and 3D1.3 to his sentence calculation for count one of his convicted
offenses--"attempted kidnapping", 18 U.S.C. 1201(d). Note that Section 1201 does not contain an element
of consideration as found in Section 1958(a) (i.e. for "receipt of, promise or agreement to pay anything of
pecuniary value"). Further, the appropriate sentencing guideline applied to 1201(d) conviction, namely
USSG 2A4.1, does not contain any enhancement for this conduct. Considering the Third Circuit's holding
in Knobloch, supra, the principle should be apposite here. A element of conviction on one offense should
not be used to enhance another count.
Where Petitioner received his injury on his sentence for count one is that 1201 (d) provides a sentence
of "up to 20 years" for conviction. In the case at bar, the 1958(a) element duplicated as an enhancement
through grouping is "triple counted" for a "multiple punishment" when applied to the wider range provided
by 1201(d). The two grouped counts are controlled by the adjusted offense level from 1958(a) with
enhancement which resulted in a final calculation for the "group" of offense level 34, criminal history
category 2. (Note: 2A1.5's base offense level, 33, plus 4 levels for (b)(1) equals 37 for 1958(a) conviction
is higher than the base offense level of 32 under 2A4.1 for the 1201(d) conviction, therefore 37 controls
the "group". Defendant received a three-level reduction to 34 under 3E1.1 "acceptance of responsibility"
by pleading guilty).
This is a double jeopardy multiple punishment. Ironically, "grouping" was supposed to "prevent double
punishment for essentially the same conduct". See USSG, Chapter 3, Part D, introduction commentary
("rationale for grouping is to prevent the imposition of multiple punishment for substantially identical
offense conduct"); cf. United States v. Seligsohn, 981 F.2d 1418, 1425 (3rd Cir. 1992). The guidelines
were written to treat "multicount convictions with an eye towards eliminating unfair treatment that might

— ZS —

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-p

flow from count manipulation" and "in order to minimize the possibility than an arbitrary casting of a
single transaction into several counts will produce a longer sentence". See USSG 1 A4(a) policy statement.
Further, the Sentencing Commission concedes that errors will pop up as the guidelines are used stating
"these rules may produce occasional anomalies". See USSG 1A4(e). This is such an anomaly.
If not for this error, Petitioner asserts he could likely have been sentenced at a calculated guidelines
offense level no greater than level 30, criminal history category 2, for a calculated range of 108 to 135
months--that would mean he was over-sentenced by a factor of 75-102 months. This is the kind of
guidelines calculation error that should compel relief under Rosales-Mireles v. United States, 585 US
__138 S.Ct. 1897, 201 L.Ed.2d 397 (2018).
The two errors sustained by the Petitioner from the application and impact of 2A1.5(b)(1) are
non-frivolous showings of a double jeopardy injury. See United States v. Liotard, 817 F.2d 1074, 1077
(3rd Cir. 1987); United States v. Garcia, 919 F.2d 881, 886 (3rd Cir. 1990). The Double Jeopardy clause
protects a defendants from receiving "multiple punishments for the same offense imposed in the same
proceeding. Jones v. Thomas, 491 U.S. 376 (1989).
Further, Petitioner does not believe Congressional Intent was to allow prosecutors to manipulate
"grouping" to obtain an "end-run" around the 10-year statutory maximum in 18 U.S.C. 1958(a) (for
convictions not involving bodily injury or death). Petitioner argues that this sentencing guidelines
provision should be ruled unconstitutional "as applied" to defendants convicted of 18 U.S.C. 1958(a).
Accordingly, this is an error that requires drastic correction to the petitioner's sentence.

— 2-6—

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petition (3.6 c d)
DATE: 08/29/2020 06:24 PM
C. PETITIONER HAS MADE A SUBSTANTIAL SHOWING OF DENIAL OF
CONSTITUTIONAL RIGHT ON ISSUE THAT SENTENCING COURT'S
RESTITUTION ORDER IS BEYOND ITS AUTHORITY UNDER 18 U.S.C. 3663A
(Due Process and Excessive Fines claim)
In the case at bar, the court is limited in what it can grant restitution for under 18 U.S.C. 3663A.
See United States v. Hicks, 997 F.3d 594, 600 (9th Cir. 1993) (that federal courts may only order
■ restitution pursuant to statutory authority). Section 3663A is very clear and enumerates only FOUR
instances where restitution is mandated. See United States v. Amato, 540 F.3d 153, 159, 161 (2nd Cir.
2000) (statute limited the court's discretion to impose restitution only for specific kinds of harm, to
"direct harm" and not indirect harm or "consequential damages"). Restitution was not mandated by
the Petitioner's plea agreement. The court imposed it through its discretion (or abuse of discretion).
The Petitioner is ordered to pay $1,033.50 in restitution to the victim as reimbursement for lost
income for a time the victim CHOSE to take off work following the Petitioner's arrest. The reason stated
in the pre-sentence report to justify this amount was a week taken off to "be with my supportive family".
Petitioner asserts that the court erred by ordering restitution for this reason.
18 U.S.C. 3663A mandates restitution in four narrow situation: (b)(1) for loss or destruction of a
victim's property; (b)(2) for costs related to bodily injury (i.e. medical, psychological, or professional
services, phyiscal therapy, lost income due to injury); (b)(3) for funeral and related expenses; (b)(4)
for costs incurred during participation in the investigation or prosecution of the offense or attending
proceedings related to the offense. None of these apply to the case at bar. The victim did not lose or
have damage to property. As the crime never happened and Petitioner was arrested in the early mere
preparation and conspiracy phase, there were no bodily injuries or death. Any time off to be "with
supportive family" is not compensible under (b)(2) because the statute unambiguously limits and ties
such recovery for harm or costs to bodily injury. See United States v. Reichow, 416 F.3d 802, 805-806
(8th Cir. 2005); also United States v. Manna, 201 Fed.Appx. 146 (4th Cir. 2006); and United States v.
Follet, 269 F.3d 996, 1001 (9th Cir. 2001) (when "the solicitation never proceeded beyond the point of
a discussion between the defendant and undercover agent...in the absence of bodily injury, restitution
cannot be ordered pursuant to 18 U.S.C. 3663A(b)(2)(A)."). Further, the Petitioner entered a plea
agreement to the Information. No grand jury or trial was necessary. The victim never appeared at

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

arraignment, plea colloquy, or sentencing hearing. There were no participation costs. Expenses other
than those enumerated in Section 3663A are simply not compensible here. See United States v. Maynard,
743 F.3d 374. 379 (2nd Cir. 2014). The district court lacked the authority to enter the restitution order.
Because this issue has a direct impact on the validity of a component of the sentence, and on how the
Bureau of Prisons can execute (or prolong) the sentence against the Petitioner through sanctions, it should
be actionable for review here. While it does not immediately lengthen the time the Petitioner is serving,
willful noncompliance with fines could result in a disciplinary sanction where loss of good conduct time
credit can be imposed. His future supervised release could be violated and revoked, and the Petitioner
returned to custody, by noncompliance with this obligation. Petitioner is forced by BOP agency policy to
pay an unlawful restitution order.
D. PETITIONER HAS MADE A SUBSTANTIAL SHOWING OF DENIAL OF
CONSTITUTIONAL RIGHT ON ISSUE OF DEFICIENT AND PREJUDICIAL
PERFORMANCE OF DEFENSE COUNSEL
(Ineffective Assistance of Counsel claim)
Petitioner asserts that his defense counsel's failure to recognzie or object to these issues before,
during, and after sentencing constitute ineffective assistance of counsel. Petitioner asserts these
failing satisfy both prongs of the Strickland test and show (1) counsel's performance was deficient; and
(2) that the deficient performance prejudiced the defendant. See Strickland v. Washington, 466 U.S.
669, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). Further, counsel dismissed and ignored the Petitioner's
inchoate questions on these issues before and after accepting the plea agreement. These questions and
the Petitioner's desire for answers or to challenge these issues should have triggered a "duty to consult"
because the Petitioner demonstrated an interested in challenging or potentially appealing these questions.
Petitioner was denied an opportunity to meaningfully challenge the conditions of his sentence that he
asserts are unconstitutional. Petitioner was further denied the opportunity to appeal because of his
counsel's lack of motivation, dismissal of the his questions, and his mis-advice. See Garza v. Idaho,
203 L.Ed.2d 77 (2019), extending the precedent and rights conveyed by Roe v. Flores-Ortega, 528 U.S.
470 (2000) to those who signed plea agreement waivers precluding appeals.
While no one has raised these specific claims before the courts previously, Petitioner asserts that
while these specific questions are novel, "double counting" is not a new or novel concept, and should have
been known by defense counsel. Defense Counsel should have been knowledgeable enough to identify the
potential for a "double counting" challenge when inchoate questions were raised. This Court described

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B
such ignorance as the quintessential example of unreasonable performance. See Hinton v. Alabama, 134
S.Ct. 1081 (2014) (an attorney's ignorance on a point of law that is’fundamental to his case combined
with his failure to perform basic research on that point is a quintessential example of unreasonable
performance under Strickland). "When the law is established, a lawyer's ignorance of it can amount to
deficient performance". Griffith v. United States, 871 F.3d 1321, 1329 (11th Cir. 2017) (ineffective
assistance claim based on failure to object to drug quantity at sentencing); Mack v. United States, 782
Fed.Appx. 789 (11th Cir. 2019) (ineffective assistance claim where lawyer failed to object to weapons
enhancement); also Smith v. Singletary, 170 F.3d 1051, 1054 (ignorance of well-defined legal principles
is nearly inexcusable).
It is entirely and reasonably probable that the Petitioner woudl have received a lower sentence except
that he was prejudiced by counsel's failure to recognize and object to the above issues. In Molina-Martinez
v. United States, 136 S.Ct. 1338, 1346-47 (2017), the Supreme Court held that application of an incorrect
higher guidelines range will be sufficient to show a reasonable probability of a different result. "Absent
unusual circumstances", the court held, a defendant who proves he was sentenced under an incorrect
higher guidelines range "will not be required to show more" to establish prejudice. Ibid, at 1347. That
the Petitioner was told by counsel that his plea agreement was proper, that counsel dismissed his
questions about his double jeopardy concerns of his sentence, ignored his further requests for answers,
counsel thus failed him and forced him to forfeit those challenges before the sentencing court and on
an appeal he would have otherwise taken. Cf. Jae Lee v. United States, 198 L.Ed.2d 476 (2017) (where
counsel's advice that claims had poor prospects led to forfeit of appeal is ineffective assistance); White
v. Johnson, 180 F.3d 648, 652 (5th Cir. 1999) (counsel's duty to consult requires more than simply notice
that an appeal is unavailable or unavailing; and if counsel ignored questions or concerns that would
indicate an interest in the potential challenging of a sentence provision that should have triggered
counsel's duty to consult regarding the filing of an appeal). Counsel essentially ignored and abandoned
/his client immediately after sentencing-attempts to reach him via letters, emails, and via third parties
on these questions were ignored. See Davis v. United States, 464 F.2d 1009 (6th Cir. 1972) (counsel's
abandonment of client after sentencing is deficient performance).
Although the Petitioner's challenge to the validity of 18 U.S.C. 1958(a) is a novel claim that has not
been previously litigated, the Petitioner asserts that counsel rendered ineffective assistance in letting
the Petitioner enter a plea of guilty to an unconstitutional statute. One of the first questions that any
attorney should ask is whether the statute seeking to'criminalize his client's conduct is constitutionally

-2?-

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

valid and whether the Government even possessed the power to prosecute. However, ineffective
assistance of counsel implicates the voluntariness of the Petitioner's plea. See United States v. Gardner,
417 F.3d 541 (6th Cir. 2005); United States v. Keller, 902 F.2d 1391 (9th Cir. 1990); and Taylor v. United
States, 2020 U.S.Dist LEXIS 34341 (S.D.Ind. 2020) (where counsel let defendant plead guilty to a statute
when his conduct did not meet the definition and elements, received significant sentence).

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Petition (3.7 concl)
DATE: 08/29/2020 08:51 PM
VII. THE QUESTIONS RAISED IN THIS CASE ARE IMPORTANT AND UNRESOLVED.
The issues presented herein have not been decided by this court nor has the court otherwise
spoken plainly on these issues. The substantive constitutional claims are novel, never before raised,
argued, or decided by this Court or lower courts. The procedural claims open new ground on what
constitutes equitable bases for access to habeas relief.
The importance of these questions cannot be understated. If the Petitioner prevails on his
constitutional claims regarding his conviction and sentence, regarding the validity of 18 U.S.C. 1958(a)
or the application of USSG 2A1.5(b)(1), it will directly impact the convictions and sentences of several
hundred federal inmates. Convictions could be vacated. Prison time decreased in resentencing. His
questions about "grouping" pursuant to USSG 3D1.2 and 3D1.3 and the analysis of his claims may
indirectly open the doors for fairer sentences and resentencing to potentially thousands of federal
inmates who suffer comparable injuries. The questions regarding equitable reasons and the application
of the Suspension Clause to the AEDPA restrictions on first-time 2255 petitions could drastically tear
open much needed access to 2255 relief would change the landscape of AEDPA-era 2255 and other
habeas litigation. His other two claims, regarding the legality of the court's restitution and claim of
ineffective defense counsel are relatively routine by comparison, but nonetheless important because
of their impact on sentencing.
The Court of Appeals and the District Court erred below because the Petitioner articulated
several grounds to remove the obstacles to entry and to have his motions adjudicated on the merits
of his claims. He argued:
* 1. That the doctrines of equitable estoppel and material mutual mistake provided a need to reform
or resentence because the plea agreement contained unconstitutional provisions. Further, as a
result, that the courts did not have the power to enter an illegal conviction to impose an illegal
sentence.
* 2. He articulated in filings below that the errors constituted a "miscarriage of justice".
* 3. He articulated a reason for not filing within the year because of the complex novel nature of the
issues not being easy to figure out until a considerable research effort and the failure of his ability

-31-

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

. to get legal advice on whether his claims were viable or arguable while he was tirelessly engaging
in research and investigation of his claims. He has been denied access to proper legal advice and
frustrated in his efforts to acquire needed knowledge because of his indigency, which raises
questions of equal protection and equity.
* 4. He raised an actual innocence by legal innocence claim, questioning the very power of the
Government to be able to prosecute, arrest, and imprison him based on a constitutionally invalid
statute.
Any one of these should have sufficed to overcome "procedural default". The Petitioner respectfully asks
this Court to review the procedural questions raised by this action and the failure to obtain entry to 2255
relief in the District of New Jersey and in the Third Circuit below. The effects of these questions could
create a Fifth-Amendment-sized hole in the wall of the AEDPA.
These questions are of such importance and to date remain unresolved that the Petitioner
respectfully asks this Court to consider adjudicating the merits of the constitutional claims raised in
his 2255 motion in its original jurisdiction if it may.
These questions raise a significant opportunity to the court that could promote a "watershed
moment" in the development of the law.
** CONCLUSION **
For the reasons set forth above, the Petitioner respectfully requests this court to grant this
Petition for a Writ of Certiorari.
** DECLARATION PURSUANT TO 28 U.S.C. 1746 **
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 2020.
Respectfuljyjsubmi

CHRISTOPHER (T.HIEM
PETITIONER PR'S) SE

-3 Z-

